APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the Court of Criminal
Appeals of the State of Oklahoma
(August 1, 2019) . . . . . . . . . . . . . . App. 1
Appendix B Order Denying Motion to Unseal
Proceedings in the Court of Criminal
Appeals of the State of Oklahoma
(June 14, 2018) . . . . . . . . . . . . . . App. 48
Appendix C Order Granting Motion to Unseal
Documents and Setting Briefing
Schedule in the Court of Criminal
Appeals of the State of Oklahoma
(June 8, 2018) . . . . . . . . . . . . . . . App. 52

App. 1

APPENDIX A
IN THE COURT OF CRIMINAL APPEALS
OF THE STATE OF OKLAHOMA
For Publication
2019 OK CR 17
No. F-2016-62
[Filed August 1, 2019]
_____________________________
DANIEL K. HOLTZCLAW,
)
)
Appellant,
)
)
vs.
)
)
THE STATE OF OKLAHOMA, )
)
Appellee.
)
_____________________________ )
OPINION
KUEHN, VICE PRESIDING JUDGE:
¶1 Daniel K. Holtzclaw was tried by jury and
convicted of Sexual Battery in violation of 21
O.S.Supp.2013, § 1123(8) (Counts 1, 13, 14, 30, 33 and
34); Procuring Lewd Exhibition in violation of 21
O.S.2011, § 1021 (Counts 4, 5, and 15); Forcible Oral
Sodomy in violation of 21 O.S.2011, § 888 (Counts 8,
10, 16, and 27); Rape in the First Degree in violation of

App. 2
21 O.S.2011, §§ 1111, 1114 (Counts 11, 28, 29 and 32);
and Rape in the Second Degree in violation of 21
O.S.2011, §§ 1111, 1114 (Count 31), in the District
Court of Oklahoma County, Case No. CF-2014-5869.1
In accordance with the jury’s recommendation the
Honorable Timothy R. Henderson sentenced Appellant
to eight (8) years imprisonment on each of Counts 1,
13, 14, 30, 33 and 34; five (5) years imprisonment on
each of Counts 4, 5, and 15; twenty (20) years
imprisonment (Count 8); sixteen (16) years
imprisonment on each of Counts 10, 16, and 27; thirty
(30) years imprisonment on each of Counts 11, 28, 29,
and 32; and twelve (12) years imprisonment (Count 31),
all to run consecutively. Appellant must serve 85% of
his sentences on Counts 8, 10, 11, 16, 27, 28, 29, and 32
before becoming eligible for parole consideration. 21
O.S.Supp.2015, § 13.1. Appellant appeals from these
convictions and sentences, and raises seven
propositions of error in support of his appeal.
Facts
¶2 From at least February 2014 to June 2014
Holtzclaw, an Oklahoma City police officer, sexually
assaulted women in northeast Oklahoma City. An
investigation into Appellant’s activities began in
earnest in late June of 2014. T.M. had reported in late
May that a police officer sexually assaulted her on May
8, 2014. While that claim was being investigated, J.L.

1

Appellant was acquitted of crimes charged in Counts 2, 3, 6, 7, 9,
12, 17-26, 35, and 36, including sexual battery, procuring lewd
exhibition, first degree burglary, stalking, forcible oral sodomy,
first and second degree rape, and indecent exposure.

App. 3
reported on June 18, 2014 that Appellant sexually
assaulted her during a traffic stop early that morning.
This led to a larger investigation. Officers used police
department records, including warrants check logs,
computer reports, computer dispatch records, and the
automatic vehicle locator in Appellant’s patrol car to
identify women with whom Appellant had contact, and
to confirm the time frame and locations of the crimes.
They also used surveillance video from local
businesses.
¶3 Eventually Appellant was charged with
assaulting thirteen women. Jurors acquitted him of all
charges involving five women: C.R., F.M., T.M., K.L.,
and S.H. He was acquitted of some charges and
convicted of others for each of two women: T.B.
(convicted of three, acquitted of two) and R.G.
(convicted of one, acquitted of one). He was convicted of
all charges concerning six women: S.E. (four counts),
C.J. (two counts), J.L. (two counts), S.B. (two counts),
R.C. (one count), and A.G. (three counts).
¶4 Taken together, the women’s stories form a
pattern wherein Appellant would conduct a traffic stop,
or stop the victims while they were walking. While
discussing the reason for the stop, he would ask
whether the women had any drugs or “anything on
them”. He would then demand that they show him
their breasts or vaginas, often asking how he could be
sure the women weren’t hiding something in their bra
or pants or otherwise referring to the demand as a
search. With several victims he touched their breasts
or vaginas; he also demanded fellatio from some
victims. In addition, he was convicted of five counts of

App. 4
first or second degree rape, and acquitted of three other
rape claims. Appellant’s threats included taking each
of his victims to jail or detox, arresting her, charging
her with a crime or promising that if she did as he
demanded, he could make warrants or criminal charges
go away, or otherwise help her situation. Most of the
victims had previous recent contacts with law
enforcement; some had outstanding warrants, some
had drug paraphernalia on them, some were under the
influence of drugs or alcohol when stopped. Sometimes
he offered the victims a ride. Most of the crimes
occurred late at night or in the early morning hours.
The women ranged in age from seventeen to in their
fifties.
¶5 In his defense, Appellant basically asked jurors
to accept as true all the information that victims gave
about the stops that was amply supported by police
records and documents, but to determine that the same
victims were lying about the details of the sexual
assaults.
Proposition I
¶6 In Proposition I Appellant claims there was
insufficient evidence to convict him of procuring lewd
exhibition, rape, oral sodomy, or sexual battery. He
argues there was no evidence that the alleged
“procuring lewd exhibition” occurred in public view; nor
was there any evidence that the alleged rape and oral
sodomy counts were accomplished by means of the use
or threat of force or violence; and the evidence
supporting the sexual battery counts was insufficient.
We take each of these claims in turn.

App. 5
¶7 Appellant was convicted on three counts of
procuring lewd exhibition.2 For each count, the State
had to show that Appellant willfully procured the
victim to expose herself to public view or to the view of
any number of persons, for the sexual stimulation of the
viewer. 21 O.S.2011, § 1021(A)(2) (emphasis added).
Jurors were correctly instructed on the elements of the
crime. The victims in these counts each testified that
Appellant demanded they expose their breasts and
vagina to him. Moreover, J.L. testified that, after that
exposure, Appellant took his penis from his pants,
clearly aroused. Taken as a whole, sufficient evidence
supports these charges.
¶8 Appellant’s primary argument is concerned with
the italicized language above. He argues that the State
did not show Appellant compelled the victims to expose
themselves to public view. Appellant admits that the
plain language of the statute also includes exposure to
the view of any number of persons. 21 O.S.2011,
§ 1021(A)(2). On its face, this language would appear to
include exposure to one person – in this case, the
Appellant. He argues that the statute should not be so
interpreted. He says that “common sense” requires that
the person viewing the exposure must be different from
the person procuring it. That is, he argues that the
crime necessarily requires three people: one to procure
the exposure, one to expose herself, and one to see it.
He offers no law to support this interpretation. Nor
does he convincingly explain why common sense would
suggest the Legislature intended to introduce a third
person to the equation; his best, unstated, argument is
2

Counts 4, 5, and 15.

App. 6
that, under this interpretation, since there were no
third persons present Appellant would win.
¶9 “In interpreting a statute, we look to its purpose,
the evil to be remedied, and the consequences of any
particular interpretation.” Rousch v. State, 2017 OK
CR 7, ¶ 5, 394 P.3d 1281, 1283. In Section 1021, the
Legislature prohibits lewd exhibition, by both the
person exhibiting and anyone who encourages or
assists them to do so. Appellant suggests that the
necessity of a third person is implicit in the language,
because, since any person participating in a lewd
exhibition would necessarily observe it, without a third
person there would be no reason to refer to any type of
“view” at all. On the contrary; this is not how statutory
interpretation works. In order for the Legislature to
protect the public from lewd exposure – the apparent
purpose of this statute – the language must refer
specifically to some type of public or personal view.
Even assuming Appellant were correct in stating that
one who procured or participated in a lewd exhibition
must see it (an assumption we do not make), without
specific language including public or personal view as
an element, the fact that they or anyone else could see
the exhibition would simply not be a crime. That
interpretation cannot be what the Legislature
intended.
¶10 As the State notes, other courts have
interpreted similar language. The New Mexico Court of
Appeals found that “public view” meant the crime
happened in a place “accessible or visible to the general
public”, State v. Artrip, 112 N.M. 87, ¶ 4, 811 P.2d 585,
586 (N.M.Ct.App. 1991). The U.S. Court of Appeals for

App. 7
the Armed Forces found that, for indecent exposure,
the phrase “public view” focuses on the person who
views the indecent exposure, not the nature of the place
as accessible to the public; where the crime is willful
and a member of the public views the crime, the
requirement is satisfied. U.S. v Graham, 56 M.J. 266,
269-70 (C.A.A.F. 2002). Even though these are indecent
exposure statutes, the breadth of the interpretation is
instructive. In addition, Appellant mistakenly
compares the case to this Court’s finding in an older
case interpreting the old statute of outraging public
decency, charged as a sexual assault on a public street.
Hulsey v. State, 86 Okla.Crim. 273, 192 P.2d 301
(Ok.Cr.1948). There, because the crime required an act
which was committed openly and affected the public,
the jury should have been instructed to find whether
the offense was committed “open to the view of the
public in such a manner that it offended public
decency.” Id., 192 P.2d at 306. This holding has no
bearing on the Appellant’s claim. The statute at issue
in Hulsey did not refer to “public view” (or public place,
for that matter), and it specifically required a finding
that members of the public should be able to see and be
outraged by the crime. That is not one of the elements
of the crime of lewd exhibition, and the discussion in
Hulsey is unhelpful.
¶11 Appellant initially notes that the Information
states that, in committing the crimes, he acted under
his authority as a police officer. Appellant correctly
points out that this is not an element of the crime.
However, he fails to show how the addition of this
language to the Information has any effect on the
sufficiency of the evidence. Appellant later returns to

App. 8
this language, arguing that he cannot be convicted of
this crime precisely because it was alleged that he
acted under authority of his badge. In § 1021.1, the
Legislature provides that § 1021 does not apply where
the proscribed conduct “occurs in the course of law
enforcement activities.” 21 O.S.2011, § 1021.1.
Appellant admits that he was on duty or in uniform, in
a patrol car, and “engaged in a Terry stop” when the
crimes occurred. He argues that the statute might be
designed to protect officers like him, who are merely
searching detainees. He is mistaken. The statute
protects persons connected with law enforcement who
engage in prohibited sexual activity specifically
connected with a law enforcement activity, such as a
sting or undercover operation. The whole point in
including the “on duty” language in the Information is
that Appellant used his position to abuse the public
trust afforded police officers – that is, that this made
his actions worse. To construe the statute as Appellant
suggests would produce the absurd result of shielding
from prosecution any law enforcement officer who
commits sex crimes prohibited under this statute while
on duty. We will not presume the Legislature intended
absurd consequences. Head v. State, 2006 OK CR 44
¶ 13, 146 P.3d 1141, 1145. Taking the evidence in the
light most favorable to the State, any rational juror
could find beyond a reasonable doubt that Appellant
committed the crimes of procuring lewd exhibition.
Easlick v. State, 2004 OK CR 21,¶ 15, 90 P.3d 556, 559.
¶12 Turning to the second set of charges,
Appellant was convicted on four counts of first degree

App. 9
rape.3 For each count, the State had to show that
Appellant had sexual intercourse with a person not his
spouse, using or threatening force or violence, where
the defendant had the apparent power to carry out the
threat. 21 O.S.2011, §§ 1111(A)(3), 1114(A)(5). Jurors
were correctly instructed on the elements of the crime.
Appellant claims the State failed to show any evidence
that he either used or threatened force or violence.
Appellant’s position as a police officer put him in a
position to make a type of threat not usually open to
sexual perpetrators: the threat of incarceration. The
victims in these counts each testified that they had
warrants or were under the influence when they were
stopped, and that Appellant presented them explicitly
or implicitly with the choice of sex with him, or going
either to detox or jail.
¶13 Appellant claims this is not enough, because
the use or threat of force refers exclusively to physical
force. On the contrary, the Legislature has specifically
defined force:
In all instances of sexual assault including, but
not limited to, rape, rape by instrumentation
and forcible sodomy where force is alleged, the
term “force” shall mean any force, no matter how
slight, necessary to accomplish the act without
the consent of the victim. The force necessary to
constitute an element need not be actual
physical force since fear, fright or coercion may
take the place of actual physical force.

3

Counts 11, 28, 29 and 32.

App. 10
21 O.S.Supp.2016, § 111. While this definition was
adopted by statute in 2016, it mirrors the definition
first approved by this Court in 1987, and consistently
used since then. Lawson v. State, 1987 OK CR 140,
¶¶ 11-12, 739 P.2d 1006, 1008. The testimony
overwhelmingly showed the victims were frightened,
coerced by threats of incarceration or detention, and
did not consent to sexual intercourse with Appellant.
Taking the evidence in the light most favorable to the
State, any rational trier of fact could find beyond a
reasonable doubt that Appellant committed first degree
rape. Easlick, 2004 OK CR 21, ¶ 5, 90 P.3d at 559.
¶14 Appellant was convicted of four counts of
forcible oral sodomy.4 The State had to show that
Appellant penetrated the victims’ mouths with his
penis, using or threatening force or violence with the
apparent power of its execution, or that he committed
the acts while he was an Oklahoma municipal
employee, and upon a person under the legal custody,
supervision or authority of an Oklahoma municipality.
21 O.S.2011, § 888(B)(3), (4).
¶15 Appellant first complains that the evidence
failed to show he used force or violence in the
commission of the acts. As we discuss above, in
connection with the rape charges, the definition of
“force” includes fear, fright or coercion. 21
O.S.Supp.2016, § 111; Lawson, 1987 OK CR 140, ¶¶ 1112, 739 P.2d at 1008. Each victim testified that
Appellant stopped her and required her to commit
fellatio, against her will and without her consent, in

4

Counts 8, 10, 16, and 27.

App. 11
lieu of arrest or detention at a detox center. Appellant
earlier argued that he could not be guilty of procuring
lewd exhibition since each of those acts occurred while,
acting as an Oklahoma City police officer, he was
attempting to search each victim. Here, where one
element of the crime is that the victim is under the
legal custody, supervision or authority of an Oklahoma
City police officer, he argues that none of the victims
were in his custody. He can hardly argue that they
were not detained – since he relies on that for his
previous argument – so instead he claims that the
statute does not include routine detention. He offers no
law to support this argument, merely claiming “it is not
reasonably likely” that is what the Legislature meant.
A person is seized by authorities when, under the
totality of the circumstances, a reasonable person in
that situation would not believe she was free to leave.
Skelly v. State, 1994 OK CR 55, ¶ 12, 880 P.2d 401,
405. The victims in these counts each testified that
Appellant detained them, and demanded oral
gratification during the course of that detention. No
reasonable person under the circumstances would have
felt free to leave. There is no question but that the
victims were under Appellant’s supervision and
authority when he committed these acts. Taking the
evidence in the light most favorable to the State, any
rational trier of fact could find beyond a reasonable
doubt that Appellant committed forcible oral sodomy.
Easlick, 2004 OK CR 21, ¶ 15, 90 P.3d at 559.
¶16 Appellant also claims that the evidence did not
support his forcible oral sodomy conviction for Count 8,
against R.G. R.G. testified that Appellant stopped her,
drove her home, followed her into her bedroom, told her

App. 12
“(T]his is better than county jail,” and put his penis in
her mouth. This evidence is sufficient to support the
jury’s determination of guilt. Easlick, 2004 OK CR 21,
¶ 15, 90 P.3d at 559. Appellant argues, essentially, that
the jury couldn’t have meant it because jurors
acquitted him of first degree rape charges against R.G.
He implies that the verdicts were inconsistent. Each
verdict stands on its own, and we will not disturb a
verdict supported by substantial evidence. Smith v.
State, 2013 OK CR 14, ¶ 64, 306 P.3d 557, 578; Gray v.
State, 1982 OK CR 137, ¶ 20, 650 P.2d 880, 884; U.S.
v. Powell, 469 U.S. 57, 67-68, 105 S.Ct 471, 478, 83
L.Ed.2d 461 (1984); Dunn v. U.S., 284 U.S. 390, 393, 52
S.Ct. 189, 190, 76 L.Ed. 356 (1932).
¶ 17 Appellant was convicted of six counts of sexual
battery.5 The State had to show that Appellant
intentionally touched, felt or mauled the body of a
person over the age of sixteen, in a lewd and lascivious
manner, either without her consent or that he
committed those acts while employed by an Oklahoma
municipality and the victim was under the legal
custody, supervision or authority of an Oklahoma
municipality. 21 O.S.Supp.2013, § 1123(B)(1), (2).
Specifically, Appellant, while acting as a police officer,
stopped each woman and demanded to touch her
breasts, vagina or both during the course of each stop.
The circumstances of each encounter, as related by the
victims, supports a conclusion that each individual
touching was in a lewd and lascivious manner.
Appellant, returning to his earlier argument, claims he
was merely engaged in searching each woman
5

Counts 1, 13, 14, 30, 33 and 34.

App. 13
pursuant to detention, which he argues was according
to department policy. Evidence showed that while
OKCPD policy allows male officers to search female
detainees, justification for such searches is strictly
limited and standard policy is for a female officer to be
called to do any search. Evidence also showed the
victims and Appellant were aware of this policy, and
Appellant had followed it on at least one other occasion.
While Appellant was certainly acting as a municipal
employee, and the victims were under his supervision
and authority, the record does not support his claim
that he was merely carrying out official duties. Taking
the evidence in the light most favorable to the State,
any rational trier of fact could find beyond a reasonable
doubt that Appellant committed sexual battery.
Easlick, 2004 OK CR 21, ¶ 15, 90 P.3d at 559.
¶18 In summary, sufficient evidence supported
Appellant’s convictions. Proposition I is denied.
Proposition II
¶19 In Proposition II Appellant claims his cases –
comprising thirty-six allegations involving thirteen
victims – should not have been joined into a single
trial. Appellant admits that, when a defendant
commits multiple, similar crimes, they may be joined
and charged in one Information. 22 O.S.2011, § 436;
Glass v. State, 1985 OK CR 65, ¶ 8, 701 P.2d 765, 768.
The transactions must refer to similar offenses,
occurring over a relatively short period of time in
approximately the same place, with overlapping proof
showing a common scheme or plan. Collins v. State,
2009 OK CR 32, ¶ 14, 223 P.3d 1014, 1017; Glass, 1985
OK CR 65, ¶ 9, 701 P.2d at 768. “‘Transaction’ is a

App. 14
word of flexible meaning. It may comprehend a series
of many occurrences, depending not so much upon the
immediateness of their connection as upon their logical
relationship.” Gilson v. State, 2000 OK CR 14, ¶ 46, 8
P.3d 883, 904 (citations omitted). The transactions
must overlap because joinder is essentially designed to
promote judicial economy by trying similar crimes
together, conserving judicial resources. Smith v. State,
2007 OK CR 16, ¶ 28, 157 P.3d 1155, 1166. Appellant
failed to object to joinder of the offenses below and we
review for plain error. Collins, 2009 OK CR 32, ¶ 12,
223 P.3d at 1017. “Plain error is an actual error, that is
plain or obvious, and that affects a defendant’s
substantial rights, affecting the outcome of the trial.”
Thompson v. State, 2018 OK CR 5, ¶ 7, 419 P.3d 261,
263.
¶20 We find no error. Appellant was charged with
similar crimes, all occurring in a particular section of
northeast Oklahoma City, over a span of just over six
months. Appellant admits we have held that a
“relatively short period of time” includes crimes
committed within four to eight months of one another.
Gilson, 2000 OK CR 14, ¶¶ 47-48, 8 P.3d at 904-05;
Collins, 2009 OK CR 32, ¶ 15, 223 P.3d at 1017. He
also admits we have held proximity in location may
include crimes committed as much as five miles apart,
Pack v. State, 1991 OK CR 109, ¶ 8, 819 P.2d 280, 283,
or within the same county, Middaugh v. State, 1988
OK CR 295, ¶¶ 9-10, 767 P.2d 432, 435. Here, all the
crimes occurred within the city limits in northeast
Oklahoma City, and are thus in the same approximate
location. Smith, 2007 OK CR 16, ¶ 25, 157 P.3d at
1165. Essentially, he argues that, despite this, the

App. 15
crimes are too far apart in time and location to be
joined.
¶21 Appellant argues that joining multiple counts
involving thirteen victims prejudiced him by allowing
the State to “artificially strengthen its case”. He argues
that, under the definition of “common scheme or plan”
used in other crimes cases, the proof of the crimes here
does not overlap to show a common scheme or plan.
However, Appellant admits we have rejected use of the
other crimes definition in deciding joinder issues.
Smith, 2007 OK CR 16, ¶¶ 28-29, 157 P.3d at 1166.
Offenses may be joined for trial even though they could
not be admissible as evidence of other crimes, if they
otherwise meet the requirements for joinder. Id., ¶ 29
n.5, 157 P.3d at 1166 n.5. The evidence against
Appellant shows a pattern of sexual offenses committed
in the same way, against similar victims, under similar
circumstances. Thus the proof related to each offense
overlaps. Id., ¶ 31, 157 P.3d at 1167. The relationship
or connection among the crimes in question was such
that proof of one crime was relevant to prove the other
charges. Collins, 2009 OK CR 32, ¶ 19, 223 P.3d at
1018.
¶22 Appellant notes that, if either the State or a
defendant is prejudiced by joinder of offenses, the
counts should be tried separately. 22 O.S.2011, § 439.
However, a defendant must show that the joinder
denied him a fair trial. Mitchell v. State, 2011 OK CR
26, ¶ 24, 270 P.3d 160, 171, overruled on other grounds
by Nicholson v. State, 2018 OK CR 10, 421 P.3d 890.
The record does not support Appellant’s claim that he
was prejudiced by joinder of the separate cases against

App. 16
him. He claims that the victims’ testimony was largely
unsupported by other evidence, arguing simply that
they should not have been believed. We found in
Proposition I that sufficient evidence supports
Appellant’s convictions; in addition, the testimony was
in fact supported by police department records of
Appellant’s movements during the times in question.
Although, as Appellant argues, the prosecutors
repeatedly referred to the victims’ testimony as a
whole, jurors did not find Appellant guilty of offenses
against every victim. In fact, jurors acquitted him
entirely of charges against five victims, and in part of
charges against two other victims. It is clear that jurors
carefully and separately considered the evidence in
each count, and pertaining to each victim. There was
no plain error in the joinder of offenses, and
Proposition II is denied.
Proposition III
¶23 In Proposition III Appellant claims that a
“circus atmosphere” throughout the trial deprived him
of a fundamentally fair trial. Appellant had the right to
be tried by a jury free from outside influences which
could affect the proceeding’s fairness. Harris v. State,
2004 OK CR 1, ¶ 9, 84 P.3d 731, 740; Sheppard v.
Maxwell, 384 U.S. 333, 363, 86 S.Ct. 1507, 1522, 16
L.Ed.2d 600 (1966). Appellant did not request either a
change of venue or a change of courtroom. After an
incident on the tenth day of trial, Appellant asked that
the jury be sequestered throughout the remainder of
the trial. The trial court denied that motion, and
Appellant makes no argument contesting that decision
on appeal. Later, Jurors were sequestered from the

App. 17
time the case was submitted to them until a verdict
was reached. Sixty-six times throughout the trial, the
trial court admonished jurors not to talk about the case
or let anyone talk to them about it; to tell the bailiff if
anybody approached them about the case; not to watch
or read any news reports; and generally that all jurors’
information about the case should come from the
courtroom.
¶24 Appellant does not complain about pretrial
publicity, admitting it was “not particularly
substantial.” He argues instead that publicity during
the trial increased dramatically.6 Appellant lists
several incidents which occurred outside the courtroom
during the trial, and which he says created a circus
atmosphere. In the first, a bystander approached a
juror in a different case, on a different floor of the
courthouse, to comment about Appellant’s case. There
is nothing in the record to suggest in any way that
Appellant was prejudiced by this incident, nor does
Appellant make any argument suggesting how it might
have affected his trial. He includes it as part of his
claim that, in the aggregate, the circumstances in the
courthouse denied him a fair trial. However, since
there is no evidence that Appellant’s jury had any idea
this happened, it cannot usefully be part of an
6

Appellant also claims that voir dire improperly included
questions regarding negative media reports about police officers.
The prosecutor specifically referred to stories about situations
stemming from police actions in Baltimore and a case involving a
school resource police officer, as well as indirectly referring to
protests and riots in Ferguson, Missouri. However, in context, the
prosecutor was trying to explore with potential jurors reasons the
victims might not have reported Appellant’s crimes to police.

App. 18
aggregate argument. This incident cannot have
impermissibly affected jurors.
¶25 On the third day of trial, a spectator tried to
take pictures in the courtroom. The trial court held an
in camera hearing, questioned the man, and
admonished him to leave his phone off while in the
courtroom. Nothing in the record suggests jurors were
affected in any way by this incident.
¶26 Before the jury was brought in on the fifth
day of trial, defense counsel raised his concern about a
news story which had aired the previous night,
discussing the racial makeup of the jury. The story
included interviews with persons not connected with
the trial, some of which were conducted at the
courthouse in front of the courtroom. Counsel stated he
believed this was an underhanded threat to the jury,
that it was jeopardizing the trial, and that it was out of
the trial court’s control. Counsel noted the extra-court
behavior seemed to escalate as the trial continued.
Counsel specifically stated he was not asking that
jurors be sequestered; he said that he did not have any
reason to believe Appellant’s trial was anything other
than fair and impartial, but he worried that there was
“a storm brewing” and wanted to prevent any incidents.
Instead, he asked to voir dire jurors as to potential
media contacts and exposure, and for an
admonishment over the long weekend for jurors to
avoid social media. The court stated it would
specifically emphasize social media issues in its
standard admonition to jurors. The trial court arranged
to station a deputy in the hallway during every break,
to shield jurors from any unauthorized contact. At the

App. 19
time of the discussion, both parties and the trial court
agreed that, as of that time, there was no indication
that jurors had been affected by the media presence or
interviews conducted outside the courtroom. Nothing in
the subsequent record suggests that jurors were
adversely affected by either media presence or
publicity.
¶27 At the close of the sixth day of trial, defense
counsel noted for the record that “it’s getting really
crazy out there in the hallway”, especially early in the
morning. He stated he did not know what remedy there
might be and did not ask the trial court to take any
action. With both parties’ agreement, the trial court
ordered a deputy to cordon off the media, in an area
away from the juror stairwell and elevators, to protect
jurors from being seen by cameras on their breaks.
¶28 As the seventh day of trial began, defense
counsel mentioned a comment to a television news
story on the station’s Facebook page, in which a person
identified by name said he knew a juror and that the
juror had an opinion and would likely vote guilty. At
Appellant’s request, and with the State’s full
agreement, jurors were questioned individually and
each denied knowing anyone with the commenter’s
name. With this established, the trial continued
without objection. There is no indication the incident
had any other effect.
¶29 On the eighth day of trial, a Friday, victim T.B.
appeared in court for her second day of testimony
possibly under the influence of benzodiazepine and
PCP, as well as Seroquel. The parties delayed her
testimony until after lunch, and discussed whether

App. 20
T.B. could testify that afternoon; she was detained
during the lunch break after she created a disturbance
in the hallway. The State suggested that she could be
detained over the weekend and resume her testimony
the following Monday. The trial court preferred to
detain T.B. over the weekend, make sure she was
sober, and have her testify the following Monday.
Defense counsel opted to have her testify that
afternoon, noting it might go to her credibility. Defense
counsel stated, “I would just as soon put her on the
stand now and have her finish her testimony.” First,
T.B.’s testimony does not constitute an outside
influence that might improperly affect jurors. Second,
Appellant fails to show either how he was prejudiced if
she testified under the influence, or how that
contributed to an unfair trial. He argues that his
agreement to her testimony was a Hobson’s choice. The
record reflects that it was a strategic decision. After
T.B.’s testimony, the trial court made a record that
although she was sarcastic, she was coherent, seemed
to comprehend the questions, and was able to
remember what she wanted to remember and answer
what she wanted to answer. The trial court found that
T.B. was not inebriated on the stand and was a
competent witness. Jurors acquitted Appellant of two
of the charged crimes against T.B. Nothing in the
record shows how her testimony, or her condition,
improperly influenced jurors.
¶30 The record shows that throughout the
morning of the tenth day of trial people in the
courtroom could clearly hear protesters outside the
courthouse chanting, “Give him life” and other things.
Defense counsel asked that the protesters be removed,

App. 21
but the trial court noted the protesters had a permit.
Appellant admits the trial court admonished jurors to
disregard the chanting as irrelevant to the courtroom
proceedings. He argues on appeal that the
admonishment was “likely ineffective”. This is just
speculation, and the record does not support it.
¶31 That same morning, during the break, a
protester in the hallway yelled “racist cop” and “racist
jury” in front of two jurors. Concerned by the hostile
environment, defense counsel asked whether the
audience could be excused and the floor cleared before
jurors left the courtroom. The trial court agreed,
subsequently allowed jurors to leave the courtroom
first at breaks and recesses, ordered a deputy to clear
the floor each time jurors left, and said he would allow
jurors to wait in the cleared courtroom until recesses
ended. Appellant’s request that jurors be sequestered
for the remainder of the trial was denied. As the State
noted, the bulk of the incidents had occurred in and
around the courthouse during the trial proceedings;
sequestration would neither prevent nor address those
problems. Nothing in the record suggests that the trial
court’s measures were insufficient to protect the jury.
The record does not show that any jurors complained
that they had been approached or contacted, and
nothing suggests jurors were inappropriately
influenced by any incidents they may have seen or
heard.
¶32 Appellant lists these incidents, but neither
explains what this Court should do about them nor
asks this Court for any specific relief. In his brief,
Appellant says “it is understandable to some extent

App. 22
why the trial court did not want to take the extreme
measures that were obviously necessary, such as
moving the trial to another courtroom higher in the
courthouse, if not another courthouse entirely, or to
sequester the jury.” However, Appellant never actually
claims that the trial court should have done either of
those things. He offers neither argument nor citation to
authority to support such arguments. Instead, he
repeats his observation that circumstances
surrounding a trial may render a fair trial impossible.
He cites in support a case from the Montana Supreme
Court, featuring an angry mob attacking a judge over
a bail decision, public meetings, vandalism, hostile
publicity, and public statements about the case by the
district attorney. State ex rel. Coburn v. Bennett, 655
P.2d 502, 507 (Mont. 1982). Appellant then claims that
the individual incidents above might appear harmless,
or have been cured by the trial court, but taken
together they show “it was not possible for Appellant or
anyone to get a fair trial.” Beyond describing the
incidents, he makes no effort to show how his trial was
rendered unfair by these incidents. He also fails to ask
this Court to reverse his convictions, or for a new trial,
based on his claim that his trial was unfair.
¶33 The record does not support a conclusion that
jurors were so affected by the incidents that they
abandoned impartiality. In fact, as we note in
Proposition II, the record shows that jurors carefully
considered all the evidence against Appellant,
accepting some and rejecting some. The fact that jurors
acquitted Appellant of half the charges against him
supports our conclusion that they were not improperly

App. 23
affected by events outside the courtroom. Proposition
III is denied.
Proposition IV
¶34 In Proposition IV Appellant claims that the
prosecutors’ overzealous argument denied him due
process and deprived him of a fair trial. Both parties
have wide latitude to argue the evidence and its
inferences, and we will not grant relief unless improper
argument affects the fairness of the trial. Barnes v.
State, 2017 OK CR 26, ¶ 6, 408 P.3d 209, 213. We will
not grant relief unless errors in argument render a
trial so fundamentally unfair that we cannot rely on
the jury’s verdict. Webster v. State, 2011 OK CR 14,
¶ 81, 252 P.3d 259, 281. Appellant objected to one
comment, preserving that claim for appeal. He failed to
object to the remainder of the comments, and we
review for plain error. Mathis v. State, 2012 OK CR 1,
¶ 24, 271 P.3d 67, 76.
¶35 He first argues the prosecutor shifted the
burden of proof in the first closing argument. Appellant
admits the prosecutor first correctly stated the burden
of proof, but argues she then negated it. The
prosecutor’s comment referred to a detailed discussion
of the elements of each charged crime, with a
description of the State’s burden and the evidence
supporting each element. In context, this was a
comment on the evidence. Where the defense has not
offered evidence, prosecutors may argue that evidence
is uncontroverted. Bosse v. State, 2017 OK CR 10,
¶ 85, 400 P.3d 834, 863. After a similar comment in
closing argument, Appellant’s objections that the
comment shifted the burden of proof and referred to

App. 24
Appellant’s right to silence were sustained at the
bench. Appellant did not ask that the jury be
admonished. The jury was repeatedly told the correct
burden of proof, in both argument and instruction.
Appellant fails to show he was prejudiced, and the
comment does not constitute plain error. Barnes, 2017
OK CR 26, ¶ 6, 408 P.3d at 213.
¶36 Appellant claims the prosecutor argued facts
not in evidence. Appellant argues that neither the
evidence nor science supports the prosecutor’s
argument in final closing that the DNA came from
A.G.’s vaginal walls and was transferred where A.G.
said it would be on his pants. Appellant claims that
since the pockets, cuffs and seat of Appellant’s uniform
were never tested for DNA, one cannot argue there was
no DNA at those locations. Regarding the latter claim,
the prosecutor was reminding jurors where the
evidence showed the DNA was – near his zipper. This
is not a misstatement of the evidence. The DNA expert
witness referred to the source of DNA as “biological
material” which could have been transferred in a
liquid. A.G. herself testified that Appellant put his
penis in her vagina. Suggesting that the DNA came
from A.G.’s vagina, transferred by the vaginal fluids,
was a reasonable inference from the evidence. Mathis,
2012 OK CR 1, ¶ 26, 271 P.3d at 77. There is no error.
¶37 Appellant claims that the prosecutor
misstated facts regarding Appellant’s statements to
police. Detective Davis specifically testified that
Appellant told her, in the interview, that he could not
remember whether he had an erection during J.L.’s

App. 25
traffic stop. This argument was supported by Davis’s
testimony and is not a misstatement of fact.
¶38 Appellant also claims the prosecutor
misstated facts when discussing the testimony of Kerri
Hunt, Appellant’s ex-girlfriend. Hunt and Appellant
dated from March 2014 to March 2015. She testified
about details of their life together, including daily
Scripture reading and sleep habits. During his
interview with detectives, Appellant said he had
intercourse with Hunt the night of June 17, 2014. Hunt
testified that she took a sleeping pill that evening; that
the two didn’t have intercourse that night; and that she
told detectives as much on June 18. On crossexamination, Hunt said that Appellant could have been
truthful with detectives, given the effect on her of the
sleeping pill. In closing, the prosecutor condensed this,
admitting he was being sarcastic but saying Appellant
“had six days of medicated, unconscious intercourse
with Kerri Hunt because it happens regularly before
they read their Bible verses which would make her
preacher daddy really proud I’m sure. That was catty,
but it’s the evidence.” It was not, in fact, the evidence,
and was wholly irrelevant to Hunt’s testimony. This
comment was improper and unprofessional. However,
reviewing for plain error, Appellant has not shown how
he was prejudiced by this comment. Mathis, 2012 OK
CR 1, ¶ 24, 271 P.3d at 77.
¶39 Appellant alleges that, in final closing, the
prosecutor repeatedly disparaged defense counsel. The
prosecution should not cast aspersions on defense
counsel. However, prosecutors may respond to points
raised in defense closing argument. Warner v. State,

App. 26
2006 OK CR 40, ¶ 182, 144 P.3d 838, 889, overruled on
other grounds by Taylor v. State, 2018 OK CR 6, 419
P.3d 265. The prosecutor began this argument by
praising defense counsel’s professionalism. He
subsequently noted that any evidence offered must be
relevant, remarked on defense counsel’s attempts to
shift the jurors’ focus, and on the difference between
“good lawyering” and common sense or the real-world
experiences of the victims. These were all reasonable
responses to defense counsel’s closing argument, which
vigorously attacked the victims, the police
investigation, and the State’s presentation of its case.
The prosecutor twice said that defense counsel was
making the arguments you have to make when your
client is guilty. The first time, he continued, “they
attack the victims, they attack the investigation and
they attack the prosecutors.” This was a poorly phrased
response to counsel’s argument. However, again
responding to argument, the prosecutor said defense
counsel was a fine attorney, “But when your client’s
guilty you have to do things that take the attention off
of your client.” This assertion of Appellant’s guilt was
improper. However, Appellant does not show prejudice
from this comment, and it does not rise to the level of
plain error. Mathis, 2012 OK CR 1, ¶ 24, 271 P.3d at
77.
¶40 In defense closing, defense counsel said of
testimony that Appellant saw one victim naked in the
hospital, “I don’t care and you shouldn’t care.”
Throughout both cross-examinations and his closing
argument, defense counsel attacked the victims, their
families and lifestyles. Defense counsel also vigorously
argued that the victims had drug and legal problems

App. 27
and/or felony convictions that showed they were
deceitful and dishonest and that should affect their
credibility. He said, “The witnesses that you saw in this
courtroom don’t care about the truth.” The prosecutor
responded in final closing that defense counsel didn’t
think jurors should care about the victims because they
were lying felons with bad lifestyles, and this was
Appellant’s attitude; that Appellant believed he could
do what he wanted to the victims because, given their
past actions and lifestyles, he didn’t care about them
and nobody else should. Appellant claims this both
maligned defense counsel and misrepresented his
argument. On the contrary, it precisely quoted defense
counsel’s remark about one victim, and neatly
encapsulated the majority of Appellant’s defense, as
presented by counsel’s argument.
¶41 No comments constituted plain error. While
occasionally the argument may have overreached, the
record shows that jurors carefully considered all the
evidence against Appellant, acquitting him of half the
charges against him. Appellant cannot show he was
prejudiced by any of the comments, taken as a whole or
individually. Proposition IV is denied.
Proposition V
¶42 In Proposition V Appellant claims trial
counsel was ineffective. He must show that counsel’s
performance was deficient, and that the deficient
performance was prejudicial. Wiggins v. Smith, 539
U.S. 510, 521, 123 S.Ct. 2527, 2535, 156 L.Ed.2d 471
(2003); Strickland v. Washington, 466 U.S. 668, 687,
104 S.Ct. 2052, 2064, 80 L.Ed.2d 674 (1984); Tucker v.
State, 2016 OK CR 29, ¶ 12, 395 P.3d 1, 5. Counsel’s

App. 28
deficient performance must constitute objectively
unreasonable decisions which undermine confidence in
the trial’s outcome. White v. State, 2019 OK CR 2,
¶ 23, 437 P.3d 1061, 1070. Appellant must show he
was actually prejudiced by counsel’s acts or omissions.
Williams v. Taylor, 529 U.S. 362, 394, 120 S.Ct. 1495,
1513-14, 146 L.Ed.2d 389 (2000); Strickland, 466 U.S.
at 693, 104 S.Ct. at 2067; Marshall v. State, 2010 OK
CR 8, ¶ 61, 232 P.3d 467, 481.
¶43 Appellant claims that trial counsel failed to
present available evidence to impeach victim T.B. After
T.B. testified, defense counsel was informed that a
teenage witness said T.B. had been handcuffed before
the witness went into the house. Appellant argues that
this story contradicted T.B.’s testimony. The record
shows that any failure to call this witness was a
strategic decision. The witness did not see anything
that happened after she went into T.B.’s house, before
the crimes against T.B. occurred. Appellant fails to
show any prejudice from trial counsel’s failure to use
this information.
¶44 Appellant argues that trial counsel should
have objected to the joinder of offenses into a single
case. We found in Proposition II that Appellant’s
separate cases were properly joined for a single trial.
As there was no error, counsel was not ineffective for
failing to object to the joinder. Appellant argues that
trial counsel should have objected to prosecutorial
misconduct in argument. We found in Proposition IV
that isolated errors in argument did not rise to the
level of plain error. As the outcome of the trial was not

App. 29
affected, trial counsel was not ineffective for failing to
object.
¶45 Appellant claims that trial counsel
completely failed to challenge the DNA evidence. This
evidence went only to the three charges involving A.G.,
Counts 30, 31, and 32. Appellant, unwilling to admit
that the utility of this evidence was limited, argues
that the admission of this DNA evidence affected every
count and every conviction, claiming that it was the
“only independent evidence” substantiating any of the
claims. He argues that without this DNA evidence,
pertaining to a single victim and three counts, jurors
would have acquitted him of all the crimes. Before
discussing the merits of the claim, we note that the
record simply does not support this allegation of
prejudice. Appellant admits jurors acquitted him of half
the charges against him; his attempt to use this as
proof that, without this evidence, they would have
acquitted him of everything is not substantiated. On
the contrary, jurors were instructed to give separate
consideration to each offense. The record shows jurors
followed that instruction, and we cannot conclude this
evidence affected every verdict. Smith v. State, 2007
OK CR 16, ¶ 38, 157 P.3d 1155, 1168. The State
provided extensive corroborating evidence, in the form
of records of Appellant’s movements and locations
while on duty on the days the crimes occurred;
witnesses also corroborated each victim whose
testimony supported a conviction, regarding their
words and actions subsequent to the crimes. As to all
but Counts 30, 31 and 32, the record does not show this
evidence had any effect on the verdicts. Appellant fails

App. 30
to show any prejudice regarding his other fifteen
convictions.
¶46 Consequently, we review this claim only for
its effect on the convictions on Counts 30, 31, and 32.
The police chemist, Taylor, found A.G.’s DNA along the
zipper line on the inside and outside of Appellant’s
pants. Appellant does not contest the conclusion that
the DNA was A.G.’s. Taylor could not say whether the
DNA came from urine, saliva, or vaginal fluid, and
called it “biological material”. She said that it was more
likely that epithelial cells contained in a fluid could be
absorbed by fabric. Taylor testified that, because
Appellant was not a contributor to the DNA sample,
there was a good possibility that the cells had been in
a liquid such as vaginal fluid and transferred to
Appellant’s pants. She testified she could say only that
the DNA was in A.G.’s biological material, and where
on Appellant’s pants it was found, not how it got there.
On cross-examination Taylor admitted the DNA could
have been the result of a secondary transfer from
something as innocuous as Appellant’s previous search
of A.G.’s purse. She confirmed that she had found
biological material, and attempted to match it to a
person, but could not tell how long the material had
been there; she agreed that it could have been a
secondary transfer.7 Defense counsel also confirmed
7

After Appellant’s trial had concluded and while this appeal was
pending before this Court, we remanded this case for hearings
tangentially connected with the DNA claims raised in this
proposition. Neither those hearings, the issues they discussed, nor
the contemporaneous and subsequent documents filed with this
Court concerning them are relevant to the issues raised in either
this appeal or Appellant’s Rule 3.11(B) Application. We neither

App. 31
that Taylor had only tested the zipper area, without
testing the pockets, legs or waist, for either Appellant’s
own DNA or any indication of other transfer DNA on
those areas.
¶47 Appellant now argues that trial counsel
should have challenged this evidence more
comprehensively. He argues that neither the evidence
at trial nor the current science supports a claim that
A.G.’s DNA came from her vaginal walls – a claim
Taylor never made. In fact, trial counsel did challenge
this evidence. Appellant admits that on crossexamination Taylor agreed the DNA could have been
from a secondary transfer. In closing, defense counsel
used this to argue that the skin cells could have been
the direct result of secondary transfer DNA from
Appellant’s legitimate search of A.G.’s purse.
¶48 Appellant claims this cross-examination and
argument were not enough. Generally, if there is no
showing of incompetence, the “fact that another lawyer
would have followed a different course” is not reason
enough to find trial counsel ineffective. Lee v. State,
2018 OK CR 14, ¶ 15, 422 P.3d 782, 786-7 (quoting
Shultz v. State, 1991 OK CR 57, ¶ 9, 811 P.2d 1322,
1327). Appellant argues that trial counsel should have
presented his own expert to refute Taylor’s “conclusions
and characterizations of the evidence.”8 Appellant

discuss nor consider them in determining the appeal or the
Application.
8

The State argues that trial counsel had retained a DNA expert
who was present in the courtroom for Taylor’s testimony, and the
failure to call that expert was a strategic choice. However, nothing

App. 32
argues that Taylor’s testimony that he was not a
contributor to the DNA is not supported by Taylor’s
own results. Appellant also argues that Taylor should
have been asked about the actual quantities of DNA
found on the garment, which he claims were modest at
best. Appellant supports this claim in part with extrarecord affidavits filed with his Rule 3.11 motion. As
that information is not in the record, we do not
consider it in determining the claim’s merits. No record
evidence supports his claim that Taylor’s testimony
about Appellant’s contribution to the DNA was
inaccurate, or that the quantity of DNA was modest
and thus more likely to be the product of secondary
transfer. Any decision not to challenge Taylor’s claim
that Appellant was not a contributor was a reasonable
strategic decision. The absence of his DNA lent
credibility to Appellant’s defense that the material was
the result of secondary transfer. Trial counsel elicited
or used admissions that (a) Taylor could not state the
source of A.G.’s DNA beyond calling it “biological
material”, (b) she did not know how it got onto
Appellant’s pants, and (c) the DNA could have been the
result of secondary transfer. We cannot say from the
trial record that Appellant was prejudiced by trial
counsel’s failure to present an expert to specifically
rebut Taylor’s testimony. On this record, trial counsel
was not ineffective for failing to present a defense DNA
expert.
¶49 Trial counsel was not ineffective, and
Proposition V is denied.
in the record supports this assertion, and we do not consider it as
part of the analysis of Proposition V.

App. 33
Rule 3.11(B) Application
¶50 In connection with his claim of ineffective
assistance of counsel Appellant filed a Rule 3.11(B)
application for an evidentiary hearing. Rule 3.11(B),
Rules of the Oklahoma Court of Criminal Appeals, Title
22, Ch.18, App. (2019). There is a strong presumption
of regularity in trial proceedings and counsel’s conduct,
and the application and affidavits must contain
sufficient information to show by clear and convincing
evidence the strong possibility that trial counsel was
ineffective for failing to identify or use the evidence at
issue. Rule 3.11(B)(3)(b)(i), Rules of the Oklahoma
Court of Criminal Appeals, Title 22, Ch.18, App. (2019).
We “thoroughly review and consider Appellant’s
application and affidavits along with other attached
non-record evidence[.]” Simpson v. State, 2010 OK CR
6, ¶ 53, 230 P.3d 888, 905. The Rule 3.11 standard set
out above is easier for a defendant to meet than the
Strickland standard, as a defendant must only provide
clear and convincing evidence that there is a strong
possibility counsel was ineffective. Id. A Rule 3.11(B)
motion must be accompanied by affidavits supporting
the allegation of ineffective assistance of counsel. Id.
¶51 In stating his claim in his Rule 3.11
Application, Appellant refers to Proposition V of his
brief for the factual basis and substantive argument.
Appellant then claims that the DNA evidence was not
challenged “in any meaningful way.” However, the
record shows defense counsel vigorously crossexamined Taylor regarding secondary transfer, her
failure to run certain tests on the biological material,
her failure to examine the pants themselves with a

App. 34
specialized lighting instrument, and the factual
limitations of her testimony regarding length of time
present, sources, methods of transfer, and mediums of
transfer for DNA samples. Defense counsel also
established that Taylor tested only a single area of the
pants, without testing any other areas where one might
expect to find DNA.
¶52 Appellant reiterates his claim that trial
counsel should have called a defense DNA expert to
rebut Taylor’s testimony and bolster his own defense.
He argues that the defense expert testimony would
have been based on extant, relevant evidence available
to trial counsel. In support, Appellant provides the
affidavit of Dr. Spence, a forensic biologist and DNA
expert. Spence reviewed the Oklahoma City Police
Department forensic examination reports including
worksheets, analyst bench notes, electropherograms,
population statistical calculations, DNA extraction and
quantification, law enforcement investigative reports,
trial testimony transcripts and evidence – all sources
available to trial counsel.
¶53 Spence avers that Taylor’s testimony was not
consistent with her DNA data. Taylor testified that
Appellant was excluded as a contributor from all four
swabs. Spence first says that the DNA data sheet
actually states that a number of nanograms of male
DNA were recovered from two of the swabs (17Q3 and
17Q4); thus, he says, Taylor’s testimony that the DNA
was only female was inaccurate. In addition to the
male DNA found on two swabs, Spence says Taylor’s
examination report stated that the DNA profile on a
third swab (17Q2A) was a mixture, with too little of the

App. 35
minor component to compare to known sources. He
states that Taylor’s report on that swab was thus
inconclusive, rather than (as she testified) excluding
Appellant. Spence thus determines that Taylor’s
testimony was inconsistent with her own findings.
Spence concludes that these results are also
inconsistent with Taylor’s testimony that, as
Appellant’s DNA was not on his pants, there was a
very good possibility that the DNA found there was
transferred in a liquid such as vaginal fluid.
¶54 Spence also avers that Taylor’s testimony
regarding vaginal fluid was inconsistent with the state
of science and her own findings. Taylor testified she
inspected the pants with an ambient light source, not
a specialized instrument usually used for those
purposes. Spence refers to Taylor’s conclusion that A.G.
would likely have had “quite a bit of lubrication”, which
could transfer cells, as speculative. Spence states this
speculation, and the prosecutor’s subsequent argument
based on it, could have been rebutted with expert
testimony.
¶55 Spence notes that the DNA mixture found on
two swabs (17Q1 and 17Q2) included alleles that could
not have originated from either A.G. or Appellant. He
speculates on various ways these alleles could have
appeared in the mixture. He asserts that trial counsel
should have asked Taylor where the stray alleles came
from. Spence states that exploration of the extra alleles
in the mixture (either with a defense expert or through
cross-examination) would have supported Appellant’s
claim that the DNA was a secondary transfer, and
rebutted the prosecution’s argument that such transfer

App. 36
was unlikely. He further notes that alleles from two
swabs (17Q3 and 17Q4) included a male contribution,
which was or could have been consistent with
Appellant’s DNA profile, and thus Taylor’s findings
were inconsistent with her conclusion that Appellant
was excluded as a contributor.
¶56 Spence avers that Taylor’s findings show only
“modest quantities” of A.G.’s DNA were present on all
four swabs. He states that Taylor’s findings did not
report high DNA yields on any swab. He notes that the
DNA yield from a car door, also tested in the case, was
equal to the yield on one swab and higher than the
other three. Spence states that the issue of the quantity
of DNA – the DNA yield – should have been raised
because it was relevant to the issue of whether vaginal
fluid was present.
¶57 Spence avers that officers mishandled the
pants. He states a video of the interrogation shows an
officer open a bag with his hand before placing
Appellant’s personal items, belt, and pants in the bag.
He states that Taylor’s report shows she did not take
any control samples from the pants or belt; he suggests
that control samples could have provided evidence
supporting the probability of an inadvertent transfer.
¶58 Spence also avers that defense counsel could
and should have used scientific principles concerning
DNA transfer and testing in Appellant’s defense. He
particularly refers to principles of DNA transfer,
scientific literature supporting DNA transfer events,
and the sensitivity of DNA testing. He suggests that a
DNA expert could have assisted trial counsel in
interpreting Taylor’s results and challenging her

App. 37
conclusions, and in explaining to jurors the principles
surrounding DNA transfer and the likelihood of
secondary transfer occurring here.
¶59 While Appellant argues in his 3.11
Application that he must show trial counsel’s
performance fell below an objective standard of
reasonableness under Strickland, that is not our first
query. Under Rule 3.11(B), we first determine whether
the affidavit in support of the Application shows, by
clear and convincing evidence, the strong possibility
that trial counsel was ineffective for failing to identify
or use the evidence at issue. Rule 3.11(B)(3)(b)(i).
Appellant argues that Spence’s affidavit supports the
conclusion that Taylor’s testimony was inconsistent
with her findings (a) because several swabs included a
DNA mixture, two had a male DNA component, and
some alleles were from unidentified contributors, and
(b) the quantities of DNA present did not have
sufficient yield to support Taylor’s testimony that the
DNA came from vaginal fluid. He also argues that
Spence’s affidavit supports his claim that science and
Taylor’s findings support the possibility that the DNA
was the result of secondary transfer, and that
possibility was not sufficiently raised.
¶60 Many of Appellant’s claims turn on the way
in which A.G.’s DNA was deposited on Appellant’s
pants. There is no real disagreement that this occurred
through a transfer of some sort. The State did not
specifically describe the method of transfer, but argued
that A.G.’s DNA was transferred to “the exact location
she says his penis came in contact.” Appellant
consistently argued the material appeared through a

App. 38
secondary transfer after Appellant searched A.G.’s
purse. Appellant claims, based on Spence’s affidavit,
that through properly challenging the DNA evidence,
defense counsel could have supported his claim of
secondary transfer. This is the focus of our analysis of
these claims.
¶61 For purposes of this analysis, taking the
assertions in Spence’s affidavit as true, it appears that
Taylor may have either misinterpreted or misstated
her own findings regarding the possible presence of
male DNA as a contributor to the DNA found on the
different pants swabs. However, Appellant must still
show that this possibly mistaken testimony meets the
standard above. At trial and on appeal – and in this
application for evidentiary hearing – Appellant does
not contest that the DNA was primarily A.G.’s.
Spence’s affidavit raises the possibility that some of the
DNA might have belonged to Appellant, though, as
Spence did not independently test the samples, this
appears to be speculation. Again, taking this assertion
as true, Appellant fails to meet the standard. Both
parties questioned Taylor repeatedly about her claim
that she did not find Appellant’s DNA on his pants,
even though everyone agreed they were his, he had
worn them, and evidence showed they were not washed
before the DNA testing.
¶62 Appellant now claims that information that
Appellant might have contributed to the DNA would
have supported his claim that A.G.’s DNA was the
result of a secondary transfer. He fails to show how.
The record clearly shows that everyone expected
Appellant’s DNA to be on his own pants. Everyone

App. 39
agreed that A.G.’s DNA was transferred to the pants.
If Appellant’s DNA were, in fact, present in the
samples from the zipper area, this would show only
that Appellant’s DNA was on his pants near his zipper
and might have mingled with the transferred DNA.
Appellant does not show, and Spence’s affidavit does
not explain, how such evidence could possibly lend
particular support to either a “vaginal fluid” transfer or
secondary transfer theory; it could support either one.
He similarly fails to show how, specifically, his theory
of secondary transfer would have been supported by
information that alleles from other individuals may
have been present in the DNA samples. Appellant’s
argument regarding the quantity of DNA recovered
suffers from the same defect.
¶63 Next, as we discuss above, Taylor never
testified the DNA was transmitted in vaginal fluid; on
the contrary, more than once Taylor testified she could
not describe the medium as anything other than
biological material, and could not say where it came
from or how it got to Appellant’s pants. Over the course
of questioning, the prosecutor asked whether, given the
location of the material and the context of the
allegations – A.G.’s testimony that Appellant’s penis
entered her vagina – it was likely that the medium was
fluid and was, specifically, vaginal fluid. Taylor
responded that, given that context, it was a likely
possibility. Her comment regarding lubrication was
made in that context. Appellant argues that the low
quantity of DNA recovered from the samples did not
support any conclusion that the DNA medium was
vaginal fluid. Spence appears to suggest that, logically,
if the DNA sample yield was low, it is more likely that

App. 40
it originated from handling or contact with an object
rather than transfer through vaginal fluid. While, if
true, this may have supported an argument by defense
counsel, it could not have countered testimony that
Taylor never gave. The allegation in this Application is
that defense counsel failed to counter Taylor’s
testimony regarding the DNA evidence, and the
affidavit does not support that claim.
¶64 Spence’s remaining concerns likewise do not
raise a strong possibility that trial counsel was
ineffective. Spence’s opinion that the uniform pants
were improperly handled (a) appears to be speculation,
and (b) does not support Appellant’s claim. Spence
complains that Appellant himself handled all his
personal items, before they were placed in the same
evidence bag. He argues that Taylor should have taken
control samples from places on the pants where there
was little likelihood of finding incriminating biological
materials. At best, Spence’s first observation suggests
that Appellant’s own hands, or some personal
possession other than Appellant’s pants, might have
contained A.G.’s DNA and transferred it to the outer
and inner zipper area. His second observation leaves
open the possibility that Taylor could have found no
more DNA, or more of Appellant’s own DNA, or A.G.’s
DNA on less likely portions of Appellant’s pants.
Appellant fails to show how any of these possibilities
make a secondary transfer more likely, or would have
shown that such a transfer was, as Spence put it,
“inadvertent”. In fact, as Spence and Appellant both
point out, and as Taylor testified, an expert cannot
testify whether a transfer is inadvertent or deliberate.
Spence also lists what he describes as scientific

App. 41
principles, and findings in scientific literature,
regarding both the mechanics of DNA testing and
secondary transfers. Appellant fails to show that this
material, presented either through cross-examination
or by an expert, would have more significantly aided
jurors than the evidence elicited by defense counsel.
¶65 Appellant has failed to show by clear and
convincing evidence the strong possibility that trial
counsel was ineffective for failing to identify the alleged
shortcomings in Taylor’s testimony, or to use the
information contained in the affidavit, either through
cross-examination or by presenting his own expert on
DNA evidence. Rule 3.11(B)(3)(b)(i), Rules of the
Oklahoma Court of Criminal Appeals, Title 22, Ch.18,
App. (2019). Appellant’s Application for Evidentiary
Hearing is denied.
Proposition VI
¶66 In Proposition VI Appellant argues that his
total sentence of 263 years is excessive. Appellant
admits that each of his eighteen sentences is within the
range of punishment. He complains that, taken
together, the sentences are excessive, and argues that
the trial court should not have run his sentences
consecutively. At sentencing, defense counsel asked for
mercy and for the judge to do the right thing but did
not specifically ask for concurrent sentences. The
decision to run sentences consecutively or concurrently
is within the trial court’s discretion. Neloms v. State,
2012 OK CR 7, ¶ 35, 274 P.3d 161, 170. An abuse of
discretion is any unreasonable or arbitrary action made
without proper consideration of the relevant facts and
law, also described as a clearly erroneous conclusion

App. 42
and judgment, clearly against the logic and effect of the
facts. State v. Hovet, 2016 OK CR 26, ¶ 4, 387 P.3d
951, 953.
¶67 Appellant argues that he is a young,
productive man who was dedicated to serving the
people and law-abiding up until his arrest. He states
that his life has been forever ruined. We have already
rejected Appellant’s claims that there was insufficient
evidence to support the convictions, or that it was
unfair for him to answer for all the crimes in a single
case. He admits that jurors acquitted him of half the
charges, but appears to claim that this somehow shows
the remaining charges against him were unsupported.
He finally claims that the joinder of the cases allowed
his sentences to be stacked unfairly. He fails to show
how exactly this “stacking” is unfair. Each sentence in
this case represents a consequence of a separate crime,
involving separate victims. The record does not support
a conclusion that the trial court abused its discretion in
ordering the sentences to run consecutively.
Proposition VI is denied.
Proposition VII
¶68 In Proposition VII Appellant claims
accumulated error requires relief. We found no error in
the preceding propositions. Where there is no error,
there will be no cumulative error. Engles v. State, 2015
OK CR 17, ¶ 13, 366 P.3d 311, 315. Proposition VII is
denied.
DECISION
¶69 The Judgments and Sentences of the District
Court of Oklahoma County are AFFIRMED. The

App. 43
Application for Evidentiacy Hearing on Sixth
Amendment Claims is DENIED. Pursuant to Rule
3.15, Rules of the Oklahoma Court of Criminal Appeals,
Title 22, Ch.18, App. (2019), the MANDATE is
ORDERED issued upon the delivery and filing of this
decision.
AN APPEAL FROM THE DISTRICT COURT OF
OKLAHOMA COUNTY THE HONORABLE
TIMOTHY R. HENDERSON, DISTRICT JUDGE
ATTORNEYS AT TRIAL
SCOTT ADAMS
ROBERT GRAY
ADAMS & ASSOCIATES
401 N. HUDSON AVE., STE. 100
OKLAHOMA CITY, OK 73102
COUNSEL FOR DEFENDANT
GAYLAND GIEGER
LORI MCCONNELL
ASST. DISTRICT ATTORNEYS
320 ROBERT S. KERR, STE. 505
OKLAHOMA CITY, OK 73102
COUNSEL FOR STATE

App. 44
ATTORNEYS ON APPEAL
JAMES H. LOCKARD
DEPUTY DIVISION CHIEF
MICHAEL D. MOREHEAD
HOMICIDE DIRECT APPEALS DIVISION
OKLA. INDIGENT DEFENSE SYS.
P.O. BOX 926
NORMAN, OK 73070
COUNSEL FOR APPELLANT
MIKE HUNTER
ATTORNEY GENERAL OF OKLA.
KEELEY L. MILLER
ASST. ATTORNEY GENERAL
313 NE 21ST STREET
OKLAHOMA CITY, OK 73105
COUNSEL FOR APPELLEE
OPINION BY KUEHN, V.P.J.
LEWIS, P.J.:
LUMPKIN, J.:
HUDSON, J.:
MUSSEMAN, S.J.*:

SPECIALLY CONCUR
CONCUR
CONCUR
CONCUR

*The Hon. William J. Musseman, District Judge of
Tulsa County, sitting by assignment.

App. 45
LEWIS, PRESIDING
CONCURRRING:

JUDGE,

SPECIALLY

¶1
I commend my colleague on a well written
decision. I write separately to address Appellant’s
propositions one, two, and six. I will initially address
the excessive sentence claim raised in proposition six.
¶2
This case involves a sexual predator who
happened to be employed, most unfortunately, as an
Oklahoma City police officer. He used his position of
authority to intimidate and prey on vulnerable victims.
The facts and circumstances of this case, including his
position of authority, the number of victims, and the
callous nature of the offenses, dictate that consecutive
sentences in this case are entirely appropriate. His
arguments attacking the convictions are likewise
unavailing.
¶3
Appellant attacks these convictions in
proposition one. He first claims his convictions for
procuring lewd exhibition, 21 O.S.2011, § 1021(A)(2),
were unsupported because he did not procure or compel
the obscene exhibition of the victims for the sexual
pleasure of others. Nothing in the statute prohibits the
person procuring or compelling the exhibition be
different from the viewer. We correctly hold today that
the procurer and the viewer can be the same person.
He procured the exhibition for his own view and for his
own sexual stimulation. I, therefore, agree that this
crime was established by the evidence. The language in
the Information stating that he did these acts under his
authority as a police officer is surplusage. The
procuring of the obscene exposure does not have to be

App. 46
by any type of force, which the command by a police
officer might infer.
¶4
This brings us to the sufficiency of the force
element of the rape and sodomy charges. Appellant’s
unique position gave him the power to demand sexual
acts of victims facing the unfavorable alternative
choices of jail or detox. This constitutes force and the
evidence was sufficient to prove the force element. He
also committed sexually battery by touching the
victims in a lewd and lascivious manner. He did not
commit the touching as part of a search or pat down
pursuant to detention. I, therefore, concur that the
evidence was sufficient to show that the touchings were
committed lewdly and lasciviously.
¶5
Proposition two involves the joinder of all of
these offenses committed against thirteen separate
victims in one trial. Appellant absolutely made no
request for separate trials in this case. Joinder was
proper and he was not prejudiced by the joinder or the
failure to request severance of the charges.
¶6
These offenses show a pattern of sexual
predation committed in similar ways, with similar
intents, under similar circumstances. Joinder of these
offenses was proper because the counts arose from the
same type of offense occurring within a few months, in
approximately the same area of the city, and the proof
of each transaction overlapped so as to show a common
scheme or plan. Cummings v. State, 1998 OK CR 45,
¶ 15, 968 P.2d 821, 829; Glass v. State, 1985 OK CR 65,
¶ 9, 701 P.2d 765, 768; see also Lott v. State, 2004 OK
CR 27, ¶ 34, 98 P.3d 318, 333. Common scheme or
plan transactions refer to a series of occurrences

App. 47
“depending not so much upon the immediateness of
their connection as upon their logical relationship.”
Plunkett v. State, 1986 OK CR 77, ¶ 7, 719 P.2d 834,
838. These offenses were logically connected and they
met the other criteria for joinder. Their joinder,
therefore, in one Information and trial was
appropriate.
¶7
Appellant, furthermore, was not unfairly
prejudiced by the joinder. Likely, had the cases been
tried separately, evidence of other non-charged offenses
would have been admissible under 12 O.S.2011,
§ 2404(B). This would not have spared Appellant in any
manner. Moreover, Appellant was acquitted on half of
the charges, showing that the jury was not influenced
unfairly by the trial of multiple counts. He has shown
neither error nor injury from the joint trial of these
offenses.
¶8
Again, I commend my colleague and concur in
the well written opinion.

App. 48

APPENDIX B
IN THE COURT OF CRIMINAL APPEALS
OF THE STATE OF OKLAHOMA
No. F-2016-62
[Filed June 14, 2018]
_____________________________
DANIEL K. HOLTZCLAW,
)
)
Appellant,
)
)
vs.
)
)
THE STATE OF OKLAHOMA, )
)
Appellee.
)
_____________________________ )
ORDER DENYING MOTION
TO UNSEAL PROCEEDINGS
Appellant Holtzclaw timely perfected a direct
appeal from his conviction for three counts of procuring
lewd exhibition, six counts of sexual battery, four
counts of forcible oral sodomy, four counts of first
degree rape, and one count of second degree rape in
Oklahoma County District Court Case No. CF-20145869. Appellate briefing is not complete and the appeal
is not yet at issue in this Court.
On June 8, 2018, this Court issued an Order
granting Appellant’s Motion to Unseal Documents and

App. 49
setting a briefing schedule. This Order was in response
to Appellant’s initial Motion, which specifically asked
this Court to unseal documents to the public. The
ruling on the Motion to Unseal was limited to the relief
requested by the Appellant. Under that Order, some
documents remain under seal, some documents were
unsealed as redacted, and all other documents were
unsealed. In doing so, this Court approved the District
Court’s determination that some material filed in this
case consists of personnel records protected by 51
O.S.Supp.2014, § 24A.7(A)(1), which are subject to
disclosure only at the discretion of the City of
Oklahoma City. We held that any such material
presented to this Court will be preserved under seal or
redacted as necessary, unless and until such time as it
may be released by the City of Oklahoma City.
In this most recent pleading, Appellant now asks
this Court to allow him to provide copies of the sealed
materials to his retained expert. This Court’s June 8
Order was clear. This material remains sealed unless
and until it is released by the City of Oklahoma City.
The record does not reflect that any party has made
such a request, that the City has either granted or
denied such a request, or that the issue has been
litigated and a trial court has ruled on the matter. This
Court cannot and will not, for the first time on appeal,
make a determination that records protected under 51
O.S.Supp.2014, § 24A.7(A)(1) should be released.
Appellant argues that he has a constitutional right
to disclosure of the sealed material in order to prepare
his defense. We will not unseal protected documents for
distribution to a third party until the documents are

App. 50
released to the public by the appropriate entity. The
disclosure of material to Appellant, which has already
occurred, is not the same as the issue of whether
documents may be unsealed to the public. As our
June 8 Order unequivocally states, Appellant’s counsel
has had access to and reviewed the original materials
at issue as well as the materials developed below,
including the evidence presented and transcripts of the
in camera hearing, and the District Court’s findings
and conclusions. The June 8 Order also allows counsel
to review the State’s original motion, filed on May 4,
2017. Any issue of whether the protected material
should be disclosed to appellate counsel, and any ruling
thereon, is moot.
Appellant’s Motion to Unseal the Proceedings is
DENIED.
The Clerk of this Court is directed to transmit a
copy of this Order to the Court Clerk of Oklahoma
County; the District Court of Oklahoma County, the
Honorable Timothy Henderson, District Judge; the
Attorney General of the State of Oklahoma, and
Appellate counsel of record.
IT IS SO ORDERED.
WITNESS OUR HANDS AND THE SEAL OF
this 14th day of June, 2018.
/s/ Gary L. Lumpkin
GARY L. LUMPKIN, Presiding Judge
/s/ David B. Lewis
DAVID B. LEWIS, Vice Presiding Judge

App. 51
/s/ Robert L. Hudson, Special Concur ¸
Judge Henderson found nothing was
exculpatory, material or proper for impeachment
ROBERT L. HUDSON, Judge
/s/ Dana Kuehn
DANA KUEHN, Judge
RECUSED
SCOTT ROWLAND, Judge
ATTEST:
/s/ John D. Hadden
Clerk
NF

App. 52

APPENDIX C
IN THE COURT OF CRIMINAL APPEALS
OF THE STATE OF OKLAHOMA
No. F-2016-62
[Filed June 8, 2018]
_____________________________
DANIEL K. HOLTZCLAW,
)
)
Appellant,
)
)
vs.
)
)
THE STATE OF OKLAHOMA, )
)
Appellee.
)
_____________________________ )
ORDER GRANTING MOTION TO
UNSEAL DOCUMENTS AND SETTING
BRIEFING SCHEDULE
Appellant Holtzclaw timely perfected a direct
appeal from his conviction for three counts of procuring
lewd exhibition, six counts of sexual battery, four
counts of forcible oral sodomy, four counts of first
degree rape, and one count of second degree rape in
Oklahoma County District Court Case No. CF-20145869. In his Brief-in-Chief and his Application for
Evidentiary Hearing, both filed in this Court on
February 1, 2017, Holtzclaw alleges he was denied

App. 53
effective assistance of trial counsel, including the
failure to present available expert testimony regarding
the DNA evidence admitted at trial. Appellate briefing
is not complete and the appeal is not yet at issue in this
Court.
We briefly summarize the appellate procedural
history of this case. On May 4, 2017, the State of
Oklahoma filed a motion (“Original Motion”) requesting
an in camera hearing to determine whether
information, included as part of the State’s Original
Motion, was legally protected from public view by
statute and/or discoverable by Appellant on appeal.
The Original Motion and exhibits were filed under seal.
On May 30, 2017, this Court remanded the case to the
District Court of Oklahoma County to conduct an in
camera hearing addressing Appellant’s constitutional
right to the materials referenced in the Original
Motion, and whether or not the information was
protected by law. At the State’s request, this Court
issued an interim protective order prohibiting the
public dissemination of those materials until they could
be reviewed by the District Court, and directed that
further documents in this matter be filed under seal.
The in camera hearing was held on June 26-27, 2017
and the District Court’s Findings of Fact and
Conclusions of Law were filed on August 7 and 8, 2017.
On July 20, 2017, this Court issued an Order which,
among other things, continued the interim protective
order and the requirement to file documents under
seal, as well as the prohibition against disseminating
information related to the in camera hearing; stayed
briefing in the direct appeal; and directed the parties to
contact the Court Marshal to view the in camera

App. 54
hearing record. On August 2, 2017, Appellant filed a
Motion to Unseal the Proceedings. On August 22, 2017,
Appellant’s counsel completed review of the in camera
record. The State completed its review of that record on
September, 9, 2017.
After thorough consideration of the issues raised in
Appellant’s Motion to Unseal Documents, we GRANT
that motion and set a briefing schedule to complete the
submission of arguments in this appeal.
Appellant makes four requests of this Court in his
Motion to Unseal Documents. Two requests – that
defense counsel receive transcripts of the in camera
hearing, and that counsel receive copies of orders filed
in the District Court of Oklahoma County on July 17,
2017 – have occurred, and are MOOT.
Appellant also asks this Court to order the District
Court to reserve entry of its Findings of Fact and
Conclusions of Law until counsel has had an
opportunity to cross-examine witnesses who testified at
that hearing, and to make argument regarding that
testimony and the material at issue to the District
Court. Defense counsel should have had the
opportunity to participate fully in that in camera
hearing, but counsels’ absence was harmless beyond a
reasonable doubt. Appellant’s counsel have now had
access to, and the opportunity to review, the original
materials at issue as well as the materials developed
below, including the evidence presented and
transcripts of the in camera hearing, and the District
Court’s findings and conclusions. This request is
MOOT.

App. 55
Appellant requests in his Motion to Unseal that “all
documents filed under seal in this case be unsealed,
except to the extent that redaction or exclusion may be
required.” This request is GRANTED. The District
Court determined that some material consists of
personnel records protected by 51 O.S.Supp.2014,
§ 24A.7(A)(1), which are subject to disclosure only at
the discretion of the City of Oklahoma City. We find no
abuse of discretion in that decision. This Court will
preserve under seal or redact documents containing
that material, unless and until such time as it may be
released by the City of Oklahoma City. Specifically, the
following documents REMAIN UNDER SEAL:
• May 4, 2017: State’s Motion to File
Accompanying Material Under Seal
• May 30, 2017: Order Remanding for In
Camera Hearing, Granting State’s motion for
Interim Protective Order and Holding Appeal
in Abeyance
• August 7 & 8, 2017: Oklahoma County
District Court Order and Amended Order
• August 10 & 16, 2017: Transcripts and
Exhibits admitted at the in camera hearing
The following documents
UNSEALED, AS REDACTED:

are

ORDERED

• August 2, 2017: Appellant’s Motion to Unseal
Documents
• August 29, 2017: Appellant’s Objection to
District Court’s findings of fact and
conclusions of law
• February 15, 2018: State’s Response to
Motion to Unseal Documents

App. 56
• February 28, 2018: Appellant’s Reply to
State’s 2/15/2018 Response
All other documents filed in this Court in this appeal
are ORDERED UNSEALED. Henceforth, only filings
which refer to in detail, or include, protected material
shall be filed under seal.
In addition, appellate counsel is GRANTED
permission to review the State’s Original Motion, filed
May 4, 2017, which remains under seal. Counsel is
directed to contact the Court Marshal to arrange a time
to view this Original Motion at the Oklahoma Court of
Criminal Appeals.
ORDER SETTING BRIEFING SCHEDULE
IT IS THEREFORE THE ORDER OF THIS
COURT that Appellant shall have thirty (30) days
from the date of this Order to supplement his
Application for Evidentiary Hearing, if necessary. The
State’s answer brief shall be due sixty (60) days from
the date Appellant’s supplemental Application for
Evidentiary Hearing is filed. Rule 3.4(8), Rules of the
Oklahoma Court of Criminal Appeals, Title 22, Ch.18,
App. (2018). The answer brief shall address the issues
raised in Appellant’s brief in chief as well as those
addressed in his application for evidentiary hearing,
amended or as originally filed.
Appellant’s reply brief, if any, shall be due twenty
(20) days from the date the State’s response brief is
filed. Rule 3.4(F)(1), Rules of the Oklahoma Court of
Criminal Appeals, Title 22, Ch.18, App. (2018). The
reply brief is limited to ten (10) pages. Rule 3.4(F)(3),

App. 57
Rules of the Oklahoma Court of Criminal Appeals,
Title 22, Ch.18, App. (2018). Any request to exceed the
page limitation must be filed in writing, setting forth a
specific basis for need. The reply brief shall address
any issues raised in Appellee’s answer brief.
The Clerk of this Court is directed to transmit a
copy of this Order to the Court Clerk of Oklahoma
County; the District Court of Oklahoma County, the
Honorable Timothy Henderson, District Judge; the
Attorney General of the State of Oklahoma, and
Appellate counsel of record.
IT IS SO ORDERED.
WITNESS OUR HANDS AND THE SEAL OF
this 8th day of June, 2018.
/s/ Gary L. Lumpkin CIP/DIP with writing
GARY L. LUMPKIN, Presiding Judge
/s/ David B. Lewis
DAVID B. LEWIS, Vice Presiding Judge
/s/ Robert L. Hudson CIP/DIP w/ writing
ROBERT L. HUDSON, Judge
/s/ Dana Kuehn
DANA KUEHN, Judge
RECUSED
SCOTT ROWLAND, Judge

App. 58
ATTEST:
/s/ John D. Hadden
Clerk
NF

App. 59
LUMPKIN, PRESIDING JUDGE: CONCURRING
IN PART/DISSENTING IN PART
While I agree with the unsealing of documents and
the redaction and release for public view other
documents, I disagree with the inconsistency in
applying the provisions of 51 O.S.Supp.2014,
§ 24A.7(A)(1).
The Order recognizes that it is the City of
Oklahoma City that has the authority to determine
what records constitute confidential personnel records.
To date this Court has no record that the City of
Oklahoma City has been petitioned to release those
records. Due to the fact the City has not had an
opportunity to review those records, it was proper for
Judge Henderson to hold the in-camera hearing
without Appellant’s counsel present. This is the same
procedure utilized when a defendant in a criminal case
petitions the trial court to review defense evidence for
a ruling prior to disclosing it to the State. In effect, if
defense counsel had been present at the in-camera
hearing the personnel records would have been
disclosed prior to any action by the City. The same is
true as it relates to releasing the State’s original
motion to the defendant in this case prior to the City of
Oklahoma City having the opportunity to review the
request pursuant to the statutory provisions. The order
affirms Judge Henderson’s determination there is no
disclosable material in the record for the purpose of the
defense.
Because of this inconsistency, I must dissent to that
part of the Order that states defense counsel “should”
have been allowed to participate at the in-camera

App. 60
hearing and to the release of the State’s original motion
to the defense prior to the City of Oklahoma City being
afforded its statutory right to review and determine
what part of the records are subject to release.
HUDSON, JUDGE: CONCUR IN PART/DISSENT
IN PART
I dissent to the majority’s decision to unseal
documents. Despite the Court’s redaction of some of
these documents, such censoring does not negate the
fact that the release of these documents is improper.
This Court directed Judge Henderson to conduct an in
camera hearing addressing Holtzclaw’s constitutional
appellate right to the materials referenced in the
State’s May 4, 2017 motion. Judge Henderson did just
that on June 26-27, 2017. The majority determination
that the hearing was improperly conducted without
Appellant’s counsel presence is erroneous. See, e.g.,
Contreras v. Artus, 778 F.3d 97, 114 (2d Cir. 2015)
(“Where the very question at issue is whether the
prosecution is obliged to reveal certain material to the
defendant, the inquiry cannot begin by revealing that
material to the defendant.”). Thereafter, in a most
thorough and complete written order entered and filed
August 4, 2017, Judge Henderson concluded that the
exhibits9 examined during the in camera hearing are
personnel records subject to discretionary disclosure

9

During the course of the in camera hearing, the State presented
five exhibits labeled A-E.

App. 61
pursuant to 51 O.S.Supp.2014, § 24A.7(A)(1).10 He
further found that none of the exhibits in question
contained exculpatory, material evidence or
impeachment evidence, and thus were not subject to
discovery by Holtzclaw’s appellate counsel.11
The majority finds no abuse of discretion in Judge
Henderson’s ruling. On this finding, I concur. However,
notwithstanding this determination, the majority
inexplicably grants Holtzclaw’s Motion to Unseal
various pleadings filed with this Court relating to the
protected materials. The majority’s Order is devoid of
any reasoning to support such action. This is a leap I
cannot make.
I reiterate Judge Henderson’s sound findings with
regard to the issues before this Court—(1) the records
in question are personnel records, subject to disclosure

10

Notably, the majority inaccurately states that the district court
determined that “some materials” were personnel records.
11

In reaching this determination, Judge Henderson appropriately
looked to Brady v. Maryland, 373 U.S. 83, 83 S. Ct. 11947, 10 L.
Ed. 2d 215 (1963) and cases construing Brady for guidance. The
district court also referred to the standard set forth in United
States v. Bagley, 473 U.S. 667, 105 S. Ct. 3375, 87 L. Ed. 2d 481
(1985) where the United States Supreme Court reiterated the test
for materiality of exculpatory evidence:
“... the evidence is material only if there is a reasonable
probability that, had the evidence been disclosed to the
defense, the result of the proceeding would have been
different. A “reasonable probability” is a probability
sufficient to undermine confidence in the outcome.”
See also Frederick v. State, 2001 OK CR 34, 37 P.3d 908.

App. 62
only at the discretion of the City of Oklahoma City; and
(2) the records contain no exculpatory, material
evidence or impeachment evidence so as to warrant
disclosure based upon Holtzclaw’s Constitutional right
to disclosure of such evidence.
For the above reasons, I respectfully dissent.

